SEC.gov |  Commission Web Security
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Commission Web Security
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
COMMISSION WEB SECURITY
Audit No. 361
August 28, 2002
INTRODUCTION
The Securities and Exchange Commission (SEC), Office of Inspector General, performed an audit of the internal controls over the security of the SEC's public website (www.sec.gov).  The primary goal of the audit was to evaluate the adequacy of security practices over the SEC public web site. The scope of the work included an evaluation of system security practices, focused penetration testing of the public website, and port scanning.
SCOPE AND OBJECTIVES
The scope of our audit consisted primarily of interviewing SEC staff and reviewing supporting documentation, among other procedures, performed at SEC Headquarters and the SEC Operations Center.  Our fieldwork was conducted during the period from July 22 through August 28, 2002.
The objectives for this website security audit were to determine whether the SEC had designed, implemented and monitored effective security controls over the information available on the public website and the access to that website.  In addition, we determined if the SEC Office of Information Technology's security plan followed industry best practices guidelines.
AUDIT RESULTS
Based on our audit, we identified several non-material control weaknesses and provided recommendations for corrective action.  We provided senior management with an oral briefing on August 28, 2002 as well as September 24, 2002 of our findings and recommendations that management document certain control objectives and related controls over web related procedures.  Management concurred with the findings and corrective actions are being implemented.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us